No. 19-1212

 

 

IN THE
Supreme Court of the United States

CHAD F. WOLF, ACTING SECRETARY OF
HOMELAND SECURITY, et al.,

Petitioners,
Vv.
INNOVATION LAW LAB, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICUS CURIAE
AMERICAN STATISTICAL ASSOCIATION
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,252 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 27, 2021.

th

Colin Casey\Mogan
Wilson-Epes Printing Co., Inc.

  
